APPENDIX: A

©ntteh States Court of Appeals
for the Jftftf) Ctrtutt
United States Court of Appeals

Fifth Circuit

FILED

No. 19-41061
Summary Calendar

February 26, 2021
Lyle W. Cayce
Clerk

Erwin Eugene Semien,
Plaintiff—Appellant^
versus

United States

of

America,
Defendant—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
No. 1:18-CV-512
Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:*
Erwin Semien, federal prisoner #05695-078, appeals the dismissal, for
want of jurisdiction under Federal Rule of Civil Procedure 12(b)(1), of his
complaint per the Federal Tort Claims Act (“FTCA”), 28 U.S.C. § 2671
etseq. Semien maintains that the district court erred in determining that it

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this opin­
ion should not be published and is not precedent except under the limited circumstances
set forth in 5th Circuit Rule 47.5.4.

No. 19-41061

lacked jurisdiction because he failed to exhaust his administrative claim that
a prison employee negligently caused his shoulder injury and the persons
responsible for his medical care were not government employees.
We review de novo a Rule 12(b)(1) dismissal for lack of subject matter
jurisdiction. Freeman v. United States, 556 F.3d 326,334 (5th Cir. 2009). As
a jurisdictional prerequisite under the FTCA, a claimant must exhaust his
claim administratively before suing by giving notice of the claim to the appro­
priate federal agency. § 2675(a); Cookv. United States ex rel. United States
Dep 3t ofLabor, 978 F.2d 164,165-66 (5th Cir. 1992). An administrative griev­
ance must contain sufficient detail to give prison officials fair notice of the
problem that will form the basis of the intended lawsuit plus an opportunity
to address the problem. Johnson v. Johnson, 385 F.3d 503,516-17 (5th Cir.
2004).
When making an administrative claim, a plaintiff is not required to
enumerate legal theories of recovery specifically. Life Partners Inc. v. United
States, 650 F.3d 1026,1030 (5th Cir. 2011). “As long as the Government’s
investigation of [the] claim should have revealed theories of liability other
than those specifically enumerated therein, those theories can properly be
considered part of the claim. ” Id. (internal quotation marks and citation
omitted).
Semien’s complaint alleged that while housed at FCC Beaumont, he
suffered a tom rotator cuff when he fell from a broken chair that the Bureau
of Prisons (“BOP”) negligently failed to maintain. His administrative claim,
however, urged claims concerning injury caused by negligent medical care.
The administrative claim failed to provide sufficient facts to alert the BOP of
the negligence of a prison employee with regard to the chair or to allow for
the investigation of such a claim. See Johnson v. Johnson, 385 F.3d 503,
516-17 (5th Cir. 2004). The district court therefore did not err in concluding

2

No. 19-41061

that Semien had failed to exhaust his claim that the chair had been negligently
maintained.
Semien contends that the district court erred in finding that none of
his medical treatment was provided by government employees. The FTCA
provides for a waiver of the United States’ immunity from suit for those
claims regarding “injury or loss of property, or personal injury or death
arising or resulting from the negligent or wrongful act or omission of any
employee of the Government while acting within the scope of his office or
employment...§ 2679(b)(1). Although the United States has consented
to be sued under the FTCA, such consent does not extend to the acts of
independent contractors. See Broussard v. United States, 989 F.2d 171,174
(5th Cir. 1993). The critical factor in determining whether an individual is an
employee of the government or of an independent contractor is the power of
the government to control that person’s detailed physical performance. See
Linkous V. United States, 142 F.3d 271,275 (5th Cir. 1998).
The government produced affidavit testimony that medical care at
FCC Beaumont was provided by an independent contractor, League Medical
Concepts, LLC (“LMC”), under a comprehensive managed health care con­
tract; no BOP personnel provided medical care to Semien at FCC Beaumont.
See Den Norske Stats Oljeselskap As v. HeereMac V.O.F., 241 F.3d 420, 424
(5th Cir. 2001); Menchaca v. Chrysler Credit Corp. 613 F.2d 507, 511 (5th Cir.
1980). Semien has produced no competing evidence that the contract per­
mitted the BOP to control the detailed performance of LMC or its employees
such that the district court’s finding was erroneous. See Linkous, 142 F.3d
at 275.
Semien’s contention that the district court impermissibly reached the
merits of his tort claim is incorrect. The finding regarding the status of LMC
as an independent contractor went to the issue of jurisdiction insofar as the

3

No. 19-41061

government’s immunity from suit does not extend to the acts of independent
contractors, see Broussard, 989 F.2d at 174, and dismissal for lack of subject
matter jurisdiction is not a determination on the merits of the underlying tort
claim, see Ramming v. United States, 281 F.3d 158,161 (5th Cir. 2001). Al­
though Semien posits, for the first time on appeal, that the United States is
liable for knowingly and willfully placing him in the substandard care of inde­
pendent contractors, “[arguments not raised before the district court are
jwaived and cannot be raisecLfor the first time-on-appeal.” LeMairev. La.
Dep’t of Transp. & Dev., 480 F.3d 383,387 (5th Cir. 2007).
Semien contends that the district court abused its discretion in deny­
ing his two requests for appointment of counsel. We review for abuse of dis­
cretion the denial of a motion for appointment of counsel. See Cupit v. Jones,
835 F.2d 82, 86 (5th Cir. 1987). An FTCA complainant “has no right to the
automatic appointment of counsel.” See Ulmer v. Chancellor, 691 F.2d 209,
212 (5th Cir. 1982). An indigent plaintiff is not entitled to the appointment
of counsel unless the case presents exceptional circumstances. Id. The exis­
tence of exceptional circumstances depends on the type and complexity of
the case and the abilities of the person litigating it. Branch v. Cole, 686 F.2d
264, 266 (5th Cir. 1982). Our review of the pleadings in this routine negli­
gence case establishes that Semien was not unduly hindered in presenting his
case without counsel and, therefore, that the district court did not abuse its
discretion. See Ulmer, 691 F.2d at 213.
AFFIRMED.

4

Case: 19-41061

Document: 00515801678

Page: 1

Date Filed: 03/30/2021

tHntteii States. Court of Appeals:
for tfjc jftftf) Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 19-41061

March 30, 2021
Lyle W. Cayce
Clerk

Erwin Eugene Semien

Plaintiff—Appellant,
versus
United States of America,
Defendant—Appellee.
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 1:18-CV-512

ON PETITION FOR REHEARING EN BANC
(Opinion 2021 U.S. App. LEXIS 5809, Feb. 26,2021)
Before King, Smith,-and Wilson, Circuit Judges.
Per Curiam:
Treating the petition for rehearing en banc as a petition for panel
rehearing, the petition for panel rehearing is DENIED. No member of the
panel or judge in regular active service having requested that the court be
polled on rehearing en banc (Fed. R. App. P. 35; 5th Cir. R. 35), the
petition for rehearing en banc is DENIED.

APPENDIX: B

Case l:18-cv-00512-MAC-ZJH Document 15 Filed 08/15/19 Page 1 of 3 PagelD #: 128

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
ERWIN EUGENE SEMIEN

§

VS.

§

UNITED STATES OF AMERICA

§

CIVIL ACTION NO. 1:18-CV-512

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Plaintiff Erwin Eugene Semien, a prisoner confined at the Federal Correctional Institution
in Beaumont, Texas, proceedingpro se and informa pauperis, filed this civil action pursuant to the
Federal Tort Claims Act (FTCA) against the United States of America.
The above-styled action was referred to the undersigned magistrate judge pursuant to 28
U.S.C. § 63 6 and the Local Rules for the Assignment ofDuties to the United States Magistrate Judge
for findings of fact, conclusions of law, and recommendations for the disposition of the case.
Factual Background
Plaintiff alleges employees of the Federal Correctional Institution in Beaumont failed to
maintain inmate chairs at the prison facility.

On December 17, 2016, plaintiff alleges he

unknowingly sat on a broken chair and fell, injuring his shoulder. Plaintiff also claims that he
received inadequate medical care for his shoulder injury.

19-41061.117

Case l:18-cv-00512-MAC-ZJH Document 15 Filed 08/15/19 Page 2 of 3 PagelD #: 129

Defendant’s Motion to Dismiss
The United States of America has moved to dismiss the action pursuant to Federal Rule of
Civil Procedure 12(b)(1). The defendant contends that plaintiff had a pre-existing shoulder injury,
and that he re-injured his tom rotator cuff by pulling a lever at work in January of 2017. The
defendant contends that the court lacks subject matterjurisdiction over the FTCA action because the
Inmate Accident Compensation Act is the exclusive remedy for a federal prisoner injured while
working.
Analysis
The district court has the authority to dismiss an action for lack of subject matter based on:
(1) the complaint alone, (2) the complaint supplemented by undisputed facts, or (3) the complaint
supplemented by undisputed facts plus the court’s resolution of disputed facts. Williamson v.
Tucker, 645 F.2d 404, 413 (5th Cir. 1981). The court generally can decide disputed issues of
material fact in order to determine whether or not it has jurisdiction. Montez v. Dep't of the Navy,
392 F.3d 147,149 (3rd Cir. 2004). However, in the context of an FTCA action, the court should not
resolve disputed facts that are dispositive of both subject matter jurisdiction and the merits of the
FTCA claim. Af. at 151.
In this case, the cause ofplaintiffs injury is in dispute. Plaintiff contends that he injured his
shoulder when he fell on a negligently-maintained chair, and the defendant contends that plaintiff
aggravated a pre-existing shoulder injury at work. The resolution ofthe disputed facts is dispositive
ofboth subject matter jurisdiction and the merits ofplaintiff s FTCA claim. Accordingly, the motion
to dismiss for lack of subject matter jurisdiction must be denied at this stage of the proceedings.

2

19-41061.118

Case l:18-cv-00512-MAC-ZJH Document 15 Filed 08/15/19 Page 3 of 3 PagelD #: 130

Recommendation
The government’s motion to dismiss for lack of jurisdiction should be denied.
Objections
Withinfoiirteendays after receipt of the magistrate judge’s report, any party may serve and
file written objections to the findings of facts, conclusions of law and recommendations of the
magistrate judge. 28 U.S.C. § 636(b)(1)(C).
Failure to file written objections to the proposed findings of facts, conclusions of law and
recommendations contained within this report within fourteen days after service shall bar an
aggrieved party from de novo review by the district court of the proposed findings, conclusions and
recommendations and from appellate review of factual findings and legal conclusions accepted by
the district court except on grounds of plain error. Douglass v. United Services Automobile
Association, 79 F.3d 1415,1417 (5th Cir. 1996) (en banc); 28 U.S.C. § 636(b)(1); Fed. R. Civ. P.
72.
SIGNED this 15th day of August, 2019.

Zaclc Hawthorn
United States Magistrate Judge

3

19-41061.119

Case l:18-cv-00512-MAC-ZJH Document 16 Filed 09/10/19 Page 1 of 2 PagelD #: 131

UNITED STATES DISTRICT COURT
ERWIN EUGENE SF.MTRN
Plaintiff,
versus

EASTERN DISTRICT OF TEXAS
§

§
§
§

§

UNITED STATES OF AMERICA,
Defendant,

CIVIL ACTION NO. 1:18-CV-512

§
§
§
§

MEMORANDUM ORDER ADOPTING THE MAGISTRATE
JUDGE’S REPORT AND RECOMMENDATION
Plaintiff Erwin Eugene Semien, a prisoner confined at the Federal Correctional Institution
in Beaumont, Texas, proceeding pro se, brought this civil action pursuant to the Federal Tort
Claims Act.
The court referred this matter to the Honorable Zack Hawthorn, United States Magistrate
Judge, at Beaumont, Texas, for consideration pursuant to applicable laws and orders of this court,
The magistrate judge recommends denying defendant’s motion to dismiss for lack of jurisdiction.
The court has received and considered the Report and Recommendation of United States
Magistrate Judge filed pursuant to such order, along with the record, pleadings and all available
evidence. No objections to the Report and Recommendation of United States Magistrate Judge
were filed by the parties.

19-41061.120

Case l:18-cv-00512-MAC-ZJH Document 16 Filed 09/10/19 Page 2 of 2 PagelD #: 132

ORDER
Accordingly, the findings of fact and conclusions of law of the magistrate judge are
correct, and the report of the magistrate judge (#15) is ADOPTED. Defendant’s motion to
dismiss (#12) is DENIED.
SIGNED at Beaumont, Texas, this 10th day of September, 2019.

^ (Qun,,.
MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE

2

19-41061.121

Case l:18-cv-00512-MAC-ZJH Document 21 Filed 10/31/19 Page 1 of 6 PagelD #: 292

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
ERWIN EUGENE SEMIEN

§

VS.

§

UNITED STATES OF AMERICA

§

CIVIL ACTION NO. 1:I8-CV-512

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Plaintiff Erwin Eugene Semien, a prisoner confined at the Federal Correctional Institution
in Beaumont, Texas, proceedingpro se and informa pauperis, filed this civil action pursuant to die
Federal Tort Claims Act (FTCA) against the United States of America.
The above-styled action was referred to the undersigned magistrate judge pursuant to 28
U.S.C. § 636 and the Local Rules for the Assignment ofDuties to the United States Magistrate Judge
for findings of fact, conclusions of law, and recommendations for the disposition of the case.
Factual Background
Plaintiff alleges employees of the Federal Correctional Institution in Beaumont failed to
maintain inmate chairs at the prison facility.

On December 17, 2016, plaintiff alleges he

unknowingly sat on a broken chair and fell, injuring his shoulder. Plaintiff also claims that he
received inadequate medical care for his injured shoulder.

19-41061.281

Case l:18-cv-00512-MAC-ZJH Document 21 Filed 10/31/19 Page 2 of 6 PagelD #: 293

Defendant’s Motion to Dismiss
The government has moved to dismiss the action for lack of subject matter jurisdiction
pursuant to Federal Rule of Civil Procedure 12(b)(1). The government contends that plaintiff’s
claim of negligently-maintained property is not actionable because the claim was not raised in an
administrative tort action. The government contends that plaintiffs claims conceminghis medical
treatment should also be dismissed for lack of subject matter jurisdictioh because all medical care
at the prison is provided by an independent contractor, not government employees.
Standard of Review
The district courthas the authority to dismiss an action for lack of subject matterjurisdiction
based on: (1) the complaint alone, (2) the complaint supplemented by undisputed facts, or (3) the
complaint supplemented by undisputed facts plus the court’s resolution of disputed facts.
Williamson v. Tucker, 645 F.2d 404,413 (5th Or. 1981). The court generally can decide disputed
issues of material fact in order to determine whether or not it has jurisdiction. Montez v. Dep’t of
the Navy, 392 F.3d 147,149 (3rd Cir. 2004). However, in the context of an FTCA action, the court
should not resolve disputed facts that are dispositive of both subject matter jurisdiction and the
merits of the FTCA claim. Id. at 151.
Analysis
The FTCA provides a limited waiver of sovereign immunity. The statute allows the United
States to be held liable to the same extent as a private employer for certain common law torts of
government employees acting within the scope oftheir employment. 28 U.S.C. § 1346(b); Coleman
v. United States, 912 F.3d 824, 835 (5th Cir. 2019).

2

19*41061.282

Case l:l8-cv-00512-MAC-ZJH Document 21 Filed 10/31/19 Page 3 of 6 PagelD #; 294

Negligently Maintaining Chair
A claim is not actionable in federal court unless the claimant has exhausted administrative
remedies with the appropriate government agency. 28 U.S.C. § 2675(a). The FTCA bars claimants
from filing suit in federal court until they have exhausted administrative remedies. McNeil v. United
States, 508 U.S. 106, 113 (1993). Although the plaintiff is not required to specifically enumerate
legal theories ofrecovery, the administrative claim must provide the agency with sufficient facts to
allow investigation of the claim. Life Partners Inc. v. United States, 650 F.3d 1026,1030 (5th Cir.
2011).
Plaintiff filed an administrative tort claim complaining that he was being denied medical
treatment for a shoulder injury. Plaintiff identified the basis of his claim as follows:
INADEQUATE MEDICAL CARE/LACK OF TREATMENT
On or about December 17, 2016 on a Saturday evening at about 6:00 PM I
“Unknowingly” sat in a broken chair which caused me to fall. I sustained an Injury
to my right shoulder and arm. An MRI revealed I have a “tom rotator cuff.” Lack
of Medical treatment caused my injury.
Defendant’s Second Motion to Dismiss, Dkt Entry 10-1 at 5. Plaintiff attached a typewritten page
documenting his attempts to receive medical treatment for his injured shoulder, but there are no
allegations that the injury itselfwas caused by the negligence of a prison employee. Plaintiff did not
provide sufficient facts to alert the Bureau of Prisons that a prison employee was negligent with
respect to the broken chair or to allow investigation ofsuch a claim. Therefore, plaintiff’s claim that
the chair was negligently maintained is unexhausted and must be dismissed.

3

19-41061.283

Case l:18-cv-00512-MAC-ZJH Document 21 Filed 10/31/19 Page 4 of 6 PagelD #: 295

Inadequate Medical Treatment
The FTCA does not waive immunity as to claims against workers who are not government
employees. Peacock v. United States, 597 F.3d 654, 659 (5th Cir. 2010). Thus, the court lacks
subject matter jurisdiction if the alleged wrongdoer is not a government employee. Broussard v.
United States, 989 F.2d 171,177 (5th Cir. 1993).
The FTCA defines government employees as officers or employees of federal agencies,
members of the military or naval forces, and persons acting on behalf of a federal agency in an
official capacity. 28 U.S.C. § 2671. A contractor with the United States is not a government
employee for purposes of the FTCA. Id. A critical factor in distinguishing a government employee
from a contractoris the power ofthe government to control the detailed physical performance of the
work. United States v. Orleans, 425 U.S. 807,814 (1976); Peacock, 597 F.3d at 659. Other factors,
including the following, may demonstrate an employee relationship: (1) the work does notrequire
a worker who is highly educated or skilled; (2) the work is typically done by an employee in the
locale, rather than an independent contractor; (3) the employer supplies the tools, instrumentalities,
or place of work; (4) the employment is for a considerable period of time with regular hours; (5) the
method ofpayment is by the hour or month; (6) the work is full-time employment by one employer;
(7) the work is part of the employer’s regular business; and (8) the parties believe they have created
an employment relationship. Rodriguez v. Sarabyn, 129F.3d760, 765 (5th Cir. 1997).
Plaintiff offers no factual support for his conclusory allegation that some of the individuals
who denied him medical treatment were employed by the Bureau of Prisons. Medical care at the
prison is provided by an independent contractor, League Medical Concepts. Under the contract,
Beague-Medicai-Concepts is paid a flat-rate per day; per inmater-The contxactTequires' League4

19-41061.284

Case l:18-cv-00512-MAC-ZJH Document al Filed 10/31/19 Page 5 of 6 PagelD #: 296

Medical Concepts to provide health services at the prison and to coordinate off-site medical
treatment as necessary, and all medical decisions are made by League Medical Concepts. Because
the medical staff is employed by League Medical Concepts, not the Bureau of Prisons, the court
lacks subject matter jurisdiction over plaintiff’s claim that he was denied medical treatment. See
Sampson v. United States, 73 Fed. Appx. 48, 49 (5th Cir. 2003) (holding that the FTCA waiver of
immunity does not extend to negligent acts of independent contractors). Therefore, the court lacks
subject matter jurisdiction over the FTCA claims concerning plaintiff’s medical care.
Recommendation
The government’s motion to dismiss for lack of jurisdiction should be granted.
Objections
Within fourteen days after receipt of the magistrate judge’s report, any party may serve and
file written objections to the findings of facts, conclusions of law and recommendations of the
magistrate judge. 28 U.S.C. § 636(b)(1)(C).
Failure to file written objections to the proposed findings of facts, conclusions of law and
recommendations contained within this report within fourteen days after service shall bar an
aggrieved party from the entitlement ofde novo review by the district court of the proposed findings,
conclusions and recommendations and from appellate review of factual findings and legal
conclusions accepted by the district court except on grounds of plain error. Douglass v. United

5

19-41061.285

Case l:18-cv-00512-MAC-ZJH Document 21 Filed 10/31/19 Page 6 of 6 PagelD #: 297

Services Automobile Association, 79 F.3d 1415, 1417 (5th Cir. 1996) (en banc); 28 U.S.C.
§ 636(b)(1); FED. R. CIV. P. 72.

SIGNED this 31st day of October, 2019.

Zack Hawthorn
United States Magistrate Judge

6

19-41061.286

Case l:18-cv-00512-MAC-ZJH Document 24 Filed 12/18/19 Page 1 of 2 RagelD #: 321

UNITED STATES DISTRICT COURT
ERWIN EUGENE SEMEN,
Plaintiff,
versus

EASTERN DISTRICT OF TEXAS
§

§
§
§

§

UNITED STATES OF AMERICA,
Defendant.

CIVIL ACTION NO. 1:18-CV-512

§
§
§
§

MEMORANDUM ORDER OVERRULING PLAINTIFF’S OBJECTIONS AND
ADOPTING THE MAGISTRATE JUDGE’S REPORT AND RECOMMENDATION
Plaintiff Erwin Eugene Semien, a prisoner confined at the Federal Correctional Institution
in Beaumont, Texas, proceeding pro se and in forma pauperis, filed this civil action pursuant to
the Federal Tort Claims Act.
The court referred this matter to the Honorable Zack Hawthorn, United States
Magistrate Judge, at Beaumont, Texas, for consideration pursuant to applicable laws and orders
of this court. The magistrate judge has submitted a Report and Recommendation of United States
Magistrate Judge. The magistrate judge recommends granting the government’s second motion
to dismiss for lack of jurisdiction.
The court has received and considered the Report and Recommendation of United States
Magistrate Judge, along with the record, pleadings, and all available evidence. Plaintiff filed
objections to the magistrate judge’s Report and Recommendation.
The court has conducted a de novo review of the objections in relation to the pleadings and
the applicable law. See FED. R. Crv. P. 72(b). After careful consideration, the court concludes
the objections are without merit. The court lacks subject matter jurisdiction because plaintiff

19-41061.310

Case l:18-cv-00512-MAC-ZJH Document 24 Filed 12/18/19 Page 2 of 2 PagelD #: 322

failed to exhaust his claim that a prison employee negligently caused his shoulder injury and the
individuals responsible for his medical treatment were not government employees.
ORDER
Accordingly, plaintiffs objections (#23) are OVERRULED. The findings of feet and
conclusions of law of the magistrate judge are correct, and the report of the magistrate judge (#21)
is ADOPTED. The government’s second motion to dismiss (#17) is GRANTED. A final
judgment will be entered in this case in accordance with the magistrate judge’s recommendation.

Signed this date
Dec 18, 2019

MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE

2

19-41061.311

Case l:18-cv-00512-MAC-ZJH Document 25 Filed 12/18/19 Page 1 of 1 PagelD #: 323

UNITED STATES DISTRICT COURT
ERWIN EUGENE SP.MTF.N
Plaintiff,
versus

EASTERN DISTRICT OF TEXAS
§

§
§
§

§

UNITED STATES OF AMERICA,
Defendant.

CIVIL ACTION NO. 1:18-CV-512

§
§
§
§

FINAL JUDGMENT
This action came on before the Court, Honorable Marcia A. Crone, District Judge,
presiding, and, the issues having been considered and a decision having been rendered, it is
ORDERED and ADJUDGED that this civil action is DISMISSED pursuant to Federal
Rule of Civil Procedure 12(b)(1). All motions not previously ruled on are DENIED.

Signed this date
Dec 18,2019

MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE

19-41061.312

